UNITED STATES DEPARTMENT OF AGRICULTURE


      OFFICE OF INSPECTOR GENERAL



       TESTIMONY OF ROGER C. VIADERO
               INSPECTOR GENERAL
         OFFICE OF INSPECTOR GENERAL
       U.S. DEPARTMENT OF AGRICULTURE


                  Before the


                U.S. SENATE
         COMMITTEE ON AGRICULTURE,
          NUTRITION, AND FORESTRY


                     on

               FEDERAL CROP
            INSURANCE REPORT

               APRIL 21, l999
                               TESTIMONY OF
                             ROGER C. VIADERO
                            INSPECTOR GENERAL
                     U.S. DEPARTMENT OF AGRICULTURE
                           BEFORE THE U.S. SENATE
            COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY
                                APRIL 21, 1999



MR. CHAIRMAN AND MEMBERS OF THE COMMITTEE:

I appreciate the opportunity to be here today to testify about the purpose and objectives of our
recently issued Report to the Secretary On Federal Crop Insurance Reform. I would like to
submit a copy of that report for the record. With me today is James R. Ebbitt, Assistant
Inspector General for Audit.

Over the past several years, my office has issued many reports on various aspects of the Federal
crop insurance program. Many of the issues raised in those reports have been addressed by
RMA, but some critical ones have not. With the current economic crisis faced by our farmers,
especially the small farmers, and congress’ well-founded goal of ensuring an adequate safety net
for those farmers, we thought it important to gather together what we consider to be the most
significant issues from our prior reports, and to look back on how the billions of dollars already
invested in this program have been used. We believe these issues merit discussion, with the end
goal being a crop insurance program which protects the farmer and ensures a fair shake for the
taxpayers.

We are pleased that our report has generated discussion. Some resulting comments
misrepresented what our report says, but others indicate a need to redefine two items in our
report--our discussion of program costs, and total reimbursement to the reinsured companies
under the Catastrophic Risk Protection (CAT) Program. To that end, Mr. Chairman, the
comments that committee staff provided to us were very helpful. We have therefore issued four
revised pages which I have provided to you. None of these revisions affect in any way the
report’s conclusions or our suggestions for corrective action.

Perhaps our biggest incentive to prepare this report came from some farmers themselves who told
us of their frustrations with being ill served by this program. For example, during our review
of nursery crop policies, nursery growers asked to meet with us to see if we could do something
to clean up abuses they were observing in the program. They advised that their complaints to
the insurance industry and the government had not been addressed. They were incensed with
some insurance agents who abused the program by fostering dishonest producers’ ability to file
false claims and incompetent insurance adjusters who adjusted those claims. These honest
producers knew that these unchecked abuses were hurting them in two ways: first, the false
claims would cause their own premiums to become unaffordable, and second, the government,
through the insurance agents, provided cash windfalls to the dishonest producers, putting the
many honest producers at a competitive disadvantage.

I would now like to provide you an overview of the issues contained in our report.

        Company Revenue Increased At The Expense Of Good Program Management

We have been sharply criticized for describing reinsured companies’ risk as minimal. Let me
show you our basis for this description. Chart 1 now before you shows the total cost to the
government, reinsured companies’ gains and losses, and loss ratios for the 18 years since 1981,
when legislation was passed which enabled for the first time private insurance companies to sell
and service Federally-backed crop insurance policies. During these years, while the government
spent over $14 billion on the program, the reinsured companies received a total of $1.35 billion
in underwriting gains for 14 years and incurred less than $94 million in underwriting losses for
4 years. One of these 4 years, 1993, was the catastrophic midwestern floods. During that year,
the government incurred costs of almost $1.4 billion. At the same time, the reinsured companies
incurred an $82 million underwriting loss but also received $243 million in administrative
expense reimbursements. Most significantly, in just the past four years, the reinsured companies’
underwriting gains were almost $1.1 billion. From another perspective, the reinsured companies
received almost 7 times as much in underwriting gains in the last 4 years than they received in
the prior 14 years. At the same time, the government paid $5.4 billion for program costs, which
consisted of total indemnities paid, plus compensation to the reinsured companies, plus RMA’s
administrative costs, less farmer-paid premiums. Also, just this past year the Government enacted
about $6 billion in supplemental funding to pay producers for yield and price losses. This is our
basis for using the term "minimal" to describe the reinsureds’ share of risk in the program thus
far.

This is also why we think it is prudent to recognize the total dollars going into the program, how
those dollars have been used, and initiate a rational discussion to decide the most effective and
efficient way for delivering various aspects of the crop insurance program. The National
Association of State Departments of Agriculture has also recognized the need for such debates.
They have issued a policy statement calling for the Farm Service Agency to be the primary
deliverer of CAT policies, along with other recommendations for significant changes in program
operations.

      Reinsureds’ Substantial CAT Underwriting Gains VS. Less Program Participation

The CAT Program was intended to provide the basic safety net to farmers and producers. The
Secretary demanded an understanding and promise from the reinsured companies that they would
properly service the limited resource farmers (farmers with gross incomes of less than $20,000)
if he agreed to turn over the servicing of the CAT Program to them. However, the companies
didn’t keep this promise because they did not provide any special servicing to meet the needs of



                                                2
these farmers. Over the period 1995 through 1998, the number of CAT policies decreased by
66 percent. More significantly, the number of limited resource farmers in the CAT Program who
had coverage in the past, slipped away from the program. Sadly, their participation in the CAT
Program fell by 78 percent from 1997 to 1998. These are the farmers who frequently are least
able to sustain losses and continue farming. We recently audited CAT servicing activities and
found that reinsured companies did not instruct their agents to contact transferred limited resource
producers to explain that they were eligible for administrative fee waivers and would not be
charged for the CAT coverage.

From 1997 to 1998, the CAT Program was progressively turned over to the reinsured companies.
In calculating the reinsured companies’ underwriting gains and losses, RMA is authorized by
statute to credit the companies for premiums which are based upon the amount of premium the
insured would have paid if he/she had purchased comparable CAT coverage. Chart 2 shows the
cost of the CAT Program to the Government, the indemnities paid to farmers and producers, and
the underwriting gains enjoyed by the reinsured companies as a result of their being given the
CAT Program to service. The reinsured companies received CAT underwriting gains of $305
million as a result of these calculations. Also, they received an additional $205 million in
administrative expense reimbursements. At the same time farmers received $268 million in CAT
indemnities. The Government paid reinsured companies about $2 for every $1 it paid to farmers
from 1995 through 1998. Conversely, for "buy up" policies, reinsured companies received about
$1.09 for every $1 paid to farmers.

Mr. Chairman, in addition to the costs of the Program which I have just discussed, the following
are several operational issues we have reported which your committee needs to consider.

                                       Conflicts Of Interest

While the Standard Reinsurance Agreement (SRA) prohibits conflict of interest, we found several
situations which undermined the integrity of the claims adjustment process. For example, we
found sales and claims supervisors supervised both sales agents and loss adjusters. These
supervisors had direct control over the loss adjustments for policies that their agents sold. This
was a violation of the SRA. We found another sales agent providing free office space to two
adjusters who also verified his personal crop losses. He received indemnities of over $350,000.
We have an ongoing criminal investigation of this situation. This agent’s book of business
totaled 350 policies, and only four of those 350 policies did not receive an indemnity for 1997.
We also found sales agents who were employed by the producers to whom they sold policies.
In one case, during 1995 and 1996 the agent received $284,000 in commissions from his
employer’s policy, along with $120,000 in salary, and the producer/employer received about $2.4
million in indemnities. Neither the reinsured company nor its attorney considered this last
situation to be a conflict of interest.




                                                 3
                               Loss Adjusters’ History Of Errors

Loss adjustment is a critical step in loss claims processing. It determines the amount of
indemnity a farmer will receive. We identified questionable indemnities caused by improper loss
adjustments in a number of recent audits. For example, we found loss adjusters did not properly
establish the insureds’ actual production in loss years which resulted in inflated indemnity
payments. In a nursery claim, the adjuster didn’t even verify a grower’s claim that a tornado
caused his loss and authorized a $243,000 indemnity payment. We subsequently determined that
the claim was false. In a summary report of 11 audit and 17 investigation reports, we determined
that RMA needed to improve its reviews of large loss claims. We found questionable
indemnities totaling about $980,000 of the $11 million reviewed. Our audits and investigations
consistently find this type of weakness in the loss adjustment process.


                  Policies Need To Be Properly Researched And Developed

RMA needs to better research and review crop insurance policies before those policies go into
effect. Flawed policies increase moral hazard risks. Policies that encourage program abuse by
producers are said to create a moral hazard risk. RMA issued flawed policies for three crops,
pima cotton, popcorn, and corn, in three respective separate areas in Texas. The insurance
provided non irrigated coverage when, in the insured areas, the crops could realistically only be
grown with irrigation. However, it was known from the outset that the crops were to be grown
on non-irrigated land. RMA’s own field personnel advised them not to issue these policies, but
RMA issued them anyway. RMA also established related yields and rates that were significantly
higher than could realistically be expected. Producers subsequently obtained policies to "farm
the insurance program" rather than plant with realistic expectations of bringing the crop to
harvest. RMA paid indemnities of over $20 million for losses associated with this coverage. In
another case, RMA has overestimated the durum wheat premium on its Crop Revenue Coverage
(CRC) by 77 cents per bushel. Potentially, the excessive cost to RMA for this error could be as
high as $74 million.

                                         Optional Units

RMA’s optional unit process also increases moral hazard risk. Under RMA’s optional unit
procedures, farmers are allowed to define their acres of production in separate units. However,
we found that these procedures may be resulting in higher costs to the Government. In our
statistical review of policies for crop year 1991, we pointed out that the net costs to the
Government could have been reduced by as much as $336.7 million if the units per producer had
been limited to one per county or basic units. These cost savings would be realized in both
administrative expenses incurred by the reinsured companies and in indemnity payments. In this
review and in other audits, we found that some farmers were not often able to substantiate from
which unit the production was harvested or that units which were contiguous often had disparate
yields or production. The optional unit policy may have allowed some farmers to manipulate

                                               4
their losses by shifting production from one unit to another, creating losses on some of their
units. In our review of the 1994 raisin crop year, we found that, for a sample of 14 farmers, the
number of units and expected production increased in loss years compared to non-loss years.



         RMA Needs To Provide Better Guidance To RMA Regions And Companies

RMA has not provided adequate guidance to program officials and reinsured companies to
adequately administer the program. RMA’s existing program handbooks are obsolete. RMA’s
regional service offices did not receive guidance to ensure that premiums were properly
established. RMA did not take an active role in monitoring the transfer and servicing of CAT
Program policies from the Farm Service Administration to the reinsured companies. The agency
did not require the reinsured companies to advise limited resource producers about available fee
waivers or otherwise provide guidance for handling the special servicing needs of these farmers.


We also found that RMA had not informed reinsured companies about the limitations of its
nonstandard classification system. This system was supposed to flag growers with excessive loss
histories for special premium rate calculations. During our review of nursery policies, we found
a grower who had hired a former FCIC official as a consultant, and circumvented this system by
using different names each year. This grower had received almost $3.8 million in indemnities
during the period 1993 through 1997. The consultant received 3 percent of the indemnity
amounts for her services. Had the system been effective, the producer’s premiums would have
increased from about $82,000 to $1.9 million and from $91,000 to $1.3 million for 1997 and
1998, respectively. The producer continues today to be able to purchase insurance at normal
rates.


         RMA Relied Too Heavily On Reinsured Company Quality Control Reviews

The reinsured companies are responsible for providing oversight of the crop insurance program
to assure that the program is being administered in accordance with SRA and USDA-approved
policies. We have repeatedly reported deficiencies in the quality control (QC) functions
reinsured companies use to meet this obligation. Specifically, reinsureds’ QC systems were not
used effectively as controls to help improve program delivery, ensure program integrity, and
report on program performance. The QC reviews were superficial and were performed by people
who lacked independence. In one of our audits, we reviewed the largest loss claims of $100,000
or more in each region of the country, a total of 35, and questioned 17. Reinsured companies
performed QC reviews on all of these policies, but did not identify any of the deficiencies
identified by OIG. This breakdown of the reinsureds’ QC process was confirmed by RMA’s own
compliance staff who, in 1997, conducted 15 operational reviews and found 11 reinsureds had
QC deficiencies.



                                               5
We have also recommended improvements in RMA’s compliance staff operations. In a recent
review, we reported that the agency could enhance the function of its Risk Compliance Staff by
(1) more effective use of its review results, (2) grater involvement and accountability of other
RMA divisions, (3) initiating a system to analyze review results to determine trends and areas
vulnerable to abuse, and (4) a more effective system to track program abuse complaints and
corrective actions taken by the responsible RMA division.

In the final analysis, Mr. Chairman, we welcome this debate and look forward to working with
all interested parties to assure that we have a crop insurance program that serves as a safety net
and protects our nation’s farmers. This concludes my prepared statement
Mr. Chairman. I will be happy to answer any questions you may have.




                                                6
